                                                      UNITED   STATES
                                    SECURITIES      AND   EXCHANGE         COMMISSION
                                                 WASHINGTON,    D.C.    20S49

      OFFICE    OF
INSPECTOR      GENERAL




               December 26, 2007

               Carl A. Clinefelter

               Inspector General

               Farm Credit Administration

               1501 Farm Credit Drive

               McClean, VA 22102-5090

               Subject:	      Report on the Quality Assessment Review of the Investigative Operations
                              of the Office of Inspector General for the Farm Credit Administration

               Dear Mr. Clinefelter:

               We have reviewed the system of internal safeguards and management procedures for the
               investigative function of the Office of Inspector General for the Farm Credit
               Administration (FCA OIG) for the period ending September 30, 2007. Our review was
               conducted in conformity with the PCIE/ECIE Quality Standardsfor Investigations and
               Quality Assessment Review Guidelines.

               We reviewed compliance with the FCA OIG's system of internal polices and procedures
               to the extent we considered appropriate. The review was conducted on December 4,
               2007, at the FCA's office in McClean, Virginia. Additionally, we reviewed case files for
               the two investigations closed during the previous 12-month period, October 1, 2006, to
               September 30,2007.

               In our opinion, the system of internal safeguards and management procedures for the
               investigation function of the FCA OIG for the year ended September 30,2007, are in full
               compliance with the quality standards established by the PCIE/ECIE. These safeguards
               and procedures provide reasonable assurance of conforming with professional standards
               in the conduct of its investigations.

               We also informally communicated some suggestions for improvements in the FCA OIG's
               investigation practices and procedures, and your Counsel, Elizabeth Dean, was very
               amenable to our suggestions. We wish to thank both you and Ms. Dean for your
               cooperation and courtesy during our review.

               Sincerely,

               :y ~ l,//:/
               H. David Kkz"

               Inspector General

